                                                   N~LI'IONAL
                                                            SCIENCE FOUNDATION
                                                     WASHINGTON, D.C. 20550




                             Office of
                         Inspector General



                                                                    :..   ..
                        MEMORANDUM
                                   DATE:    arch 31, 19                                           ___ ...

-~~... .   . ... -   ---.-   --.   FROM
                                     -
                                        :                                                 igations Unit
                             SUBJECT:                     -  1/ Interest by
                                            Possible Conflict,of




                               --
                                                                                   * ,5
                                                                                   +,
                                     TO:    Case No. I92040011

                        On April 6, 1992, we were notified by an OIG auditor,
                       -. --   that a possible conflict of interest/limit on
                        violation may have taken
                        Director of the Division o
                        Ms.       had fou
                        publishing company
                        NSF.
                        Dr.        explained in his letter of April 8 , 1992; that to the
                        best of his recollection the $50 check was an-for             the
                        critical review of a manuscript, and that s u c h A ' f J w e r e
                        standard practice. ~r-also        stated that the review was done
                        on his own time.
                        We reviewed Dr. ~ i n a n c i a Disclosure           l                form (Form 2 7 8 ) , and
                        found no irregularities. The only possible violation identified by
                        us was of the I-                             on all Executive branch employees,
                        which was in effect at the ttme that the $50 check was issued.
                        However, the ban was repealed on March 30, 1993 in N a t i o n a l
                        T r e a s u r y E m p l o y e e s Union v. U n i t e d S t a t e s , LEXIS No. 6565 (D.C.
                        Cir. 1993), rendering the acceptance of the $5-legal.
                        As no violations were found, this case is closed.
